                                DEPARTMENT OF HOMELAND SECURITY
                                         Office of Inspector General – Office of Audits
                                                   San Francisco Field Office
                                                  1111 Broadway, Suite 1200
                                                Oakland, California 94607-4052


                                                          February 24, 2004


MEMORANDUM

TO:                  Jeff Griffin
                     Regional Director
                     FEMA Region IX




FROM:                Robert J. Lastrico
                     Field Office Director

SUBJECT:    Audit of California Department of Corrections
            Sacramento, California
            Public Assistance Identification Number No. 000-92018
            FEMA Disaster Number 1203-DR-CA
            Audit Report Number DS-10-04
___________________________________________________________________________

The Office of Inspector General (OIG) audited public assistance grant funds awarded to the
California Department of Corrections, Sacramento, California (Department). The objective of
the audit was to determine whether the Department expended and accounted for Federal
Emergency Management Agency (FEMA) funds according to federal regulations and FEMA
guidelines.

The Department received an award of $3.5 million from the California Office of Emergency
Services (OES), a FEMA grantee, for emergency response and permanent repairs needed due
to damage caused by severe winter storms and flooding. The disaster period was from
February 2, 1998, to April 30, 1998. The award provided for 75 percent FEMA funding for
52 small projects and 12 large projects.1 The audit covered the period of February 2, 1998, to


1
    Federal regulations in effect at the time of the disaster set the large project threshold at $47,100.

This report remains the property of the DHS Office of Inspector General (DHS-OIG) at all times and, as
such, is not to be publicly disclosed without the express permission of the DHS-OIG. Requests for copies
of this report should be immediately forwarded to the DHS Office of Counsel to the Inspector General to
ensure strict compliance with all applicable disclosure laws.
October 30, 2002, and included a review of four large projects with a total FEMA award of
$2.3 million (see Exhibit).

The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to Government Auditing Standards issued by the Comptroller
General of the United States. The audit included a review of FEMA, OES, and Department
records, tests of the Department’s accounting records, a judgment sample of project
expenditures, and other auditing procedures considered necessary under the circumstances.


                                  RESULTS OF AUDIT

The Department sufficiently supported its claim and used federal funds for intended purposes
for two of the four projects reviewed. However, the Department’s claim for the other two
projects included questionable costs of $38,172 (FEMA share - $28,629). The questionable
costs consisted of $33,746 in overstated equipment costs for project 51737 and $4,426 of
unsupported force account labor for project 73717.

Finding A – Overstated Equipment Costs

The Department’s claim for project 51737 included $33,746 in overstated equipment costs
because the Department used an equipment rate higher than the rate authorized in FEMA’s
Schedule of Equipment Rates. According to Title 44, Code of Federal Regulations, Section
206.228(a)(iii) [44 CFR 206.228(a)(iii)], reimbursement for ownership and operation costs of
applicant-owned equipment used to perform eligible work shall be provided in accordance
with the FEMA Schedule of Equipment Rates if no local rates have been established and
approved. The Department did not have an established rate for equipment usage, but claimed
equipment costs for two pieces of equipment at 50 percent of acquisition cost. By using the
FEMA Schedule of Equipment Rates to determine eligible equipment costs, the OIG
determined that the Department’s claim included $33,746 in overstated and therefore
questionable equipment costs.

Finding B – Unsupported Force Account Labor

The Department’s claim included $4,426 of unsupported force account labor. According to
44 CFR 13.20(b)(6), grant recipients are required to maintain records and source documents
such as payrolls and time and attendances records for the purpose of identifying how FEMA
funds were spent. For project 73717, the Department claimed $909,911 for its emergency
response to the disaster-related flooding. The Department derived labor costs from employee
time cards based on hours charged during the incident period. However, the hours on the
time cards generally did not agree with the hours claimed. Consequently, the OIG determined




                                             2
that the $4,426 claimed for force account labor was not adequately supported by employee
time cards and therefore, was questionable.


                                 RECOMMENDATION

OIG recommends that the Regional Director, FEMA Region IX, in coordination with OES,
disallow $38,172 in questionable costs.


         DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

OIG discussed the results of the audit with OES and Department’s officials on January 22,
2004, and with FEMA officials on January 23, 2004. The Department’s officials agreed with
OIG findings and recommendation.

Please advise this office by April 26, 2004, of the actions taken to implement our
recommendation. Should you have any questions concerning this report, please contact me at
(510) 627-7011. Key contributors to this assignment were Trudi Powell and Sabinus Njoku.




                                            3
                                                                              Exhibit

                             Schedule of Audited Projects
                         California Department of Corrections
                                Sacramento, California
                  Public Assistance Identification Number 000-92018
                         FEMA Disaster Number 1203 DR-CA


              Project        Amount             Amount             Finding
              Number         Awarded           Questioned         Reference
               75307        $ 930,174           $      0
               51737           182,781            33,746              A
               65737           264,145                 0
               73717           909,611             4,426              B
                            $2,286,711           $38,172



Finding Reference Legend:
A - Overstated Equipment Costs
B - Unsupported Force Account Labor




                                         4
